No:

In the
SUPREME COURT OF THE UNITED STATES

JEFFREY LANCE HILL, SR., Petitioner,
v.
LEANDRA G. JOHNSON, GREGORY S. PARKER,
WILLIAM F. WILLIAMS, III, JENNIFER B.
SPRINGFIELD, JOEL F. FOREMAN, SUWANNEE
RIVER WATER MANAGEMENT DISTRICT,
COLUMBIA COUNTY, FLORIDA, and CITY OF
LAKE CITY, FLORIDA, Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI
JEFFREY LANCE HILL, SR., Petitioner, pro se
908 SE Country Club Road
Lake City, Florida 32025
Phone: 386-623-9000

RECEWED
FEB - 7 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

QUESTIONS PRESENTED
Whether the United States Court of Appeals for
the Eleventh Circuit violated the Due Process Clause
when applying the Rooker-Feldman Doctrine to bar
the District Court from reviewing the state court
judgments and orders for state agency actions.
Whether the $100,000.00 fine imposed in state
court case no. 06-203CA is facially unconstitutional
because there are no guidelines in Florida law to
ensure consistency in the amount of fine imposed for
such activity as a farmer replacing a rusted pipe.
Whether the $100,000.00 fine imposed in state
court case no. 06-203CA is excessive or unusual and
violates the rights provided by the Eighth
Amendment to the United States Constitution.
Whether, when considering the provisions of
Florida Statutes 403.813 (1) (g) & (h) and 373.406
(1), the state court lacked jurisdiction of the subject
matter (the dike/dam) in case no. 06-203 CA.
Whether the Suwannee River Water Management
District had legal and prudential standing to begin
their action in state court case number 06-203 CA.
Whether the United Stated District Court, Middle
District of Florida violated the Due Process Clause
by sua sponte dismissing Petitioner's Complaint
without development of fact and without opportunity
to offer proof.

U

PARTIES
The Plaintiff/Petitioner is Jeffrey Lance Hill, Sr..
The Defendants/Respondents are Leandra G.
Johnson, individually; Gregory S. Parker,
individually; William F. Williams, III, individually;
Jennifer B. Springfield, individually; Joel F.
Foreman, individually; Suwannee River Water
Management District, Columbia County, Florida and
City of Lake City, Florida.
RELATED STATE COURT PROCEEDINGS
STATE OF FLORIDA CIRCUIT COURT, THIRD
JUDICIAL CIRCUIT
Case no.: 06-203 CA; Suwannee River Water
Management District (SRWMD) v. El Rancho No
Tengo, Inc. (ERNT); Complaint filed by SRWMD on
May 26, 2006.
Case no.: 06-203CA; SRWMD V. ERNT; Order
granting temporary Injunctive Relief to SRWMD;
entered July 11, 2007.
Case no.: 06-203 CA; Suwannee River Water
Management District (SRWMD) v. El Rancho No
Tengo, Inc., (ERNT) Order granting permanent
Injunctive Relief to SRWMD; entered August 7,
2007.
Case no.: 06-203 CA; SRWMD V. ERNT; Order
awarding $100,000.00 fine to SRWMD; entered April
25, 2008.

all

Case no.: 06-203 CA; SRWMD V. ERNT; Order
authorizing SRWMD to drain Hill's pond and flood
Hill's farm; entered September 2, 2008.
Case no.: 06-203 CA; SRWMD V. ERNT; Sua sponte
Order of judge to disqualify self on October 13, 2009.
Case no.: 06-203 CA; SRWMD v. ERNT; Order
authorizing SRWMD flood Hill's land; entered
March 15, 2010.
Case no.: 06-203 CA; SRWMD v. ERNT; Order
awarding $280,276.20 fees to SRWMD, entered
May 3, 2010.
Case no.; 06-203 CA; SRWMD V. ERNT; Order
denying Hill's Motion to Rehear on August 5, 2010.
Case no.: 11-340 CA; Jeffrey Lance Hill, Sr. & Linda
P. Hill (the Hills) v. SRWMD; Complaint for land
taking filed on August 1, 2011.
Case no.; 11-340 CA; The Hills v. SRWMD; Orders of
disqualification entered September 13 & 15, 2011.
Case no.: 11-340 CA; The Hills v. SRWMD; Order
assigning Judge Greg Parker entered Sept. 15, 2011.
Case no.: 11-340 CA; The Hills v. SRWMD; Order
granting SRWMD dismiss I strike on Jan. 9, 2012.
Case no.: 11-340 CA; the Hills v. SRWMD; Order
denying Hill's Motion to rehear on October 31, 2012.

lv
Case no.: 13-666CA; SRWMD V. ERNT and Jeffrey
Lance Hill, Sr.; SRWMD files to foreclose on Hill and
ERNT, filed on December 19, 2013.
Case no.: 11-340CA; the Hills v. SRWMD; Order to
stay property tax on March 5, 2014.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill;
Order of reassignment to judge Greg Parker; entered
April 23, 2014.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill;
Final Summary Judgment of Foreclosure; entered
November 4, 2014.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill;
Order denying rehear and denying vacate; entered
November 26, 2014.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill;
Order setting aside judicial sale; January 27, 2015.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill;
Orders denying Hill's Motion for stay pending
appeal; entered February 23, 2015.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill;
Orders resetting Judicial Sale; entered on February
24 & 27, 2015.
Case no.: 11-340CA; the Hills v. SRWMD; Order
granting SRWMD, in part, motion on Feb. 25, 2015.
Case no.: 13-666 CA; SRWMD v. ERNT and Hill:
Certificate of Sale issued on March 25, 2015.

Case no.; 11-340CA; the Hills v. SRWMD; Hill
removes case to His bankruptcy case on April 14,
2015.
Case no.: 13-666 CA; SRWMD v. ERNT, Hill, Jeffrey
Lance Hill, Jr., & Joshua S. Hill; Order overruling
all Objections; entered July 21, 2015.
Case no.: 06-203 CA; SRWMD v. ERNT; Order
denying Motion to Vacate; entered July 21, 2015.
Case no.: 11-340CA; the Hills v. SRWMD;
Bankruptcy Court remands takings claim back to
state court; filed on July 27, 2015.
Case no.: 11-340 CA; The Hills v. SRWMD; Final
Order granting Summary Judgment by quasijudicial immunity for SRWMD to take land; entered
February 10, 2016; ( Reversed on April 18, 2017 by
Florida First District Court of Appeal).
Case no.: 13-666CA; SRWMD v. ERNT and Hill;
Order of Recusal; entered April 21, 2016.
Case no.: 13-666CA; SRWMD v. ERNT and Hill;
Order 'assigning' all cases involving Hill to
Suwannee County Judge; entered April 27, 2016.
Case no.; 11-340CA; the Hills v. SRWMD; Order
`assigning all cases involving Hill to Suwannee
County judge; entered April 27, 2016.
Case no.: 15-390 CA; Fla. DEP v. Jeffrey L. Hill, et
al; Consent judgment signed by Suwannee County
judge; entered June 16, 2016.

vi
Case no.: 11-340CA; the Hills v. SRWMD; Order by
Suwannee County judge denying the Hills' motion to
rehear on June 27, 2016.
Case no.; 11-340CA; the Hills v. SRWMD; Order by
Suwannee County judge denying motion to lift stay,
entered September 30, 2016.
Case no.: 11-340CA; the Hills v. SRWMD; Mandate/
opinion of reversal, 1D16-3343, filed May 4, 2017.
Case no.: 16-374CA; Hill v. SRWMD; Summary
judgment granted to SRWMD by Suwannee County
judge on March 25, 2017.
Case no.: 17-132CA; Columbia County v. Jeffrey L.
Hill, Jr., a/k/a Lance Hill, d/b/a Lance Water and
SRWMD; Petition to appoint Receiver, filed by
Columbia County on April 7, 2017.
Case no.: 17-132CA; Columbia County v. J. L. Hill,
Jr., et al and SRWMD; Order by Suwannee County
judge granting SRW1VID right to enter private land
in Columbia County; entered June 14, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Order
signed by Suwannee County judge bifurcating trial
on June 26, 2017; filed June 27, 2017.
Case no.; 11-340CA; The Hills v. SRWMD; Order
signed by Suwannee County judge setting non-jury
trial, entered June 28, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Order by
Suwannee County judge denying disqualification

vii
and denying objection to bifurcating trial, entered
July 20, 2017.
Case no.: 17-132CA; Columbia County v. Jeffrey L.
Hill, Jr, et al and SRWMD; Order by Suwannee
County judge refusing disqualification, Aug. 10,
2017.
Case no.: 11-340CA; The Hills v. SRWMD; Orders by
Suwannee County judge setting hearings, entered on
August 10 & 14, 2017.
Case no.; 11-340CA; The Hills v. SRWMD; Orders by
Suwannee County judge denying the Hills' motions,
entered August 15 & 16, 2017.
Case no.: 11-340CA; The Hills. v. SRWMD; Five
Orders signed by Suwannee County judge, all in
favor of SRWMD entered August 18, 2017.
Case no.: 17-132CA; Columbia County v. Jeffrey L.
Hill, Jr. et al and SRWMD.; Order determining Hill
not a party and striking Hill's pleadings signed by
Suwannee County judge on August 21, 2017.
Case no.: 17-132CA; Columbia County v. Jeffrey L.
Hill, Jr.(Hill, Jr.), et al and SRWMD; Two Orders by
Suwannee County judge appointing receiver and
striking Hill's responses entered August 23, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Seven
Orders signed by Suwannee County judge in favor of
SRWMD, entered August 14, 22, & 25, 2017.

viii
Case no.: 17-132CA; Columbia County v. Hill, Jr., et
al and SRWMD; Order by Suwannee County judge
denying Hill's appearance and striking Hill's Motion,
signed on August 25, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Six
Orders signed by Suwannee County judge in favor of
SRWMD entered September 14, 22, & 25, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Order
regarding the Hills paying file fee of Appeal no.:
1D17-3030 entered September 25, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Seven
Orders signed by Suwannee County judge in favor of
SRWMD entered Octobei 6, 9, 10, & 11, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Three
Orders signed by Suwannee County judge denying
the Hills' motion for mistrial entered Oct. 23 & 30,
2017.
Case no.: 11-340CA; The Hills v. SRWMD; Order for
the Hills to pay file fee in Appeal no. 1D17-3030
entered October 31. 2017.
Case no.: 17-132CA; Columbia County v. Hill, Jr., et
al and Michael Smalhidge, Receiver; Order for
receiver to enter private land in Columbia County
signed by Suwannee County judge on November 20,
2017.

ix
Case no.: 11-340CA; The Hills v. SRWMD; Four
Orders signed by Suwannee County judge in favor of
SRWMD entered November 6, 13, 20 & 21, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Final
Judgment signed by Suwannee County judge in
favor of SRWMD entered November 28, 2017.
Case no.; 11-340CA; The Hills v. SRWMD; Order
signed by Suwannee County judge for the Hills to
pay property tax entered December 11, 2017.
Case no.: 11-340CA; The Hills v. SRWMD; Order in
favor of SRWMD and Order for the Hills to pay file
fee signed by Suwannee County judge entered
January 5 &12, 2018.
Case no.: 17-132CA; Columbia County v. Hill, Jr. et
al and Michael Smallridge, Receiver; Order that this
court has jurisdiction over Hill, Jr.; signed by
Suwannee County judge on April 18, 2019.
Case no. 17-132CA; Columbia County v. Hill, Jr., et
al and Michael Smallridge, Receiver; Order to Hill to
Show Cause by Suwannee County judge signed May
6, 2019.
Case no.: 17-132CA; Columbia County v. Hill, Jr. et
al and SRWMD; Two Orders by Suwannee County
judge denying Hill Jr.'s Motions to rehear and
disqualify judge; signed on June 3, 2019.
Case no.: 17-132CA; Columbia County (Col. Co.) v.
Hill, Jr., et al and SRWMD; Hill Jr. files response on

June 12, 2019; (Hill, Jr. not served until May 24,
2019).
FLORIDA FIRST DISTRICT COURT OF
APPEAL PROCEEDINGS RELATED
Appeal nos.: 1D07-4185 & 1D08-2568; ERNT v.
SRWMD; cases consolidated on June 23, 2008.
Appeal no.: 1D07-4185; ERNT V. SRWMD; Order
per curiam affirming trial court without written
opinion, entered February 17, 2009.
Appeal no.: 1D08-2568; ERNT V. SRWMD; Order
denying rehearing, denying written opinion and
denying en banc review, entered April 2, 2009.
Appeal nos.: 1D07-4185 & 1D08-2568; ERNT v.
SRWMD; Florida Supreme Court denies review on
May 27, 2009.
Appeal no.: 1D14-5653; Hill v. SRWMD; Notice of
Appeal filed on December 11, 2014.
Appeal
1D14-5653; Hill v. SRWMD; Per Curiam
Affirmed without written opinion on June 30, 2015.
Appeal no.: 1D14-5653; Hill v. SRWMD; Order
denying rehear, denying written opinion, and
denying en banc review on July 14, 2015.
Appeal no.: 1D14-5653; Hill v. SRWMD; Order
denying Clarification on July 17, 2015.

xi
Appeal no.: 1D14-5653; Hill v. SRWMD; Order
denying written opinion again entered July 30, 2015.
Appeal no.: 1D15-3772; Hill v. SRWMD; Per Curiam
Affirm without written opinion on March 16, 2016.
Appeal no.: 1D15-3772; Hill v. SRWMD; Rehear,
Written opinion, en bane denied on April 8, 2016.
Appeal no.: 1D16-3343; Hill v. SRWMD; Reversal of
trial court, entered April 18, 2017.
Appeal no.: 1D17-2979; Hill v. SRWMD; Appeal
dismissed on August 24, 2017.
Appeal no.: 1D17-2979; Hill v. SRWMD; Rehear
denied on September 27, 2017.
Appeal no.: 1D17-3030; Jeffrey Lance Hill, Sr. and
Linda P. Hill v. SRWMD; Petition for Writ of
Prohibition denied, motions and petitions moot and
stricken, entered December 29, 2017:
Appeal no.: 1D17-1691; Hill v. SRWMD; Trial court
Per Curiam. Affirmed. entered February 14, 2018.
Appeal no.: 1D17-1691; Hill v. SRWMD; Order
denying rehear, clarification, written opinion and en
bane review, entered March 27, 2018.
Appeal no.: 1D17-1691; Hill v. SRWMD; Order
denying certification to Florida Supreme Court ,
entered May 25, 2018.

xii
Curiam
Appeal no.: 1D18-0048; Hill v. SRWMD; Per
2019.
Affirmed w/o written opinion, entered July 26,
; Rehear
Appeal no.: 1D18-0048; Hill v. SRWMD
opinion
denied, clarification denied, & written
denied, entered October 4, 2019.

RELATED FLORIDA SUPREME COURT
PROCEEDINGS
Inc. v.
Case no.: SC09-867; El Rancho No Tengo,
9.
SRWMD; Review denied, entered May 27, 200
denying.
Case no.: SC15-1568; Hill v. SRWMD; Order
Review (dismissed), entered August 26, 2015.
er of
Case no. SC16-826; Hill v. SRWMD; Ord
dismissal, entered May 16, 2016.
striking
Case no.; SC16-826; Hill v. SRWMD; Order
Hill's Motion, entered September 30, 2016.
; Clerk
Case no.: SC17-2221; Hill v. SRWMD
7.
dismissed petition, entered February 27, 201
; Clerk
Case no.: SC17-1407; Hill v. SRWMD
rt of
Cou
transfers petition to Florida First District
Appeal on August 2, 2017.
; Clerk
Case no.: SC17-1833; Hill v. SRWMD
rt of
Cou
transfers motion to Florida First District
Appeal on December 1, 2017.

Case no.: SC17-1407; Hill v. SRWMD; Clerk strikes
review as untimely, entered April 30, 2018.
Case no.: SC18-651; Hill v. SRWMD; Order
dismissing for lack of jurisdiction, entered May 1,
2018.
RELATED U. S. BANKRUPTCY COURT
PROCEEDINGS
Case no.: 3:08-bk-7279, Debtor El Rancho No Tengo,
Inc., dismissed on May 14, 2009.
Case no.: 3:11-bk-3247; Debtor Jeffrey Lance Hill,
Sr. (Hill) ; dismissed on March 23, 2012.
Case no.: 3:11-bk-3247; Debtor Hill, Sr.; Order
denying rehear, entered May 3, 2012.
Case no.: 3:08-bk-7279; Debtor. El Rancho No Tengo,
Inc.; Order denying reopen, entered Dec. 23, 2014.
Case no.; 3:15-bk-1290; Debtor Hill, Sr.; Order
granting relief to SRWMD, entered April 27, 2015.
Case no.: 3:15-bk-1290; Debtor Hill, Sr.; Order
denying reconsideration and denied stay entered
July 24, 2015.
Case no.: 3:15-bk-1290; Debtor Hill, Sr.; Order
denying stay entered Sept. 4, 2015.
Case no.: 3:15-bk-1290; Debtor Hill, Sr.; Order
granting dismissal entered June 24, 2016.

xiv
RELATED U.S. DISTRICT COURT
PROCEEDINGS
Case no.: 3:12-cv-0860; Jeffrey Lance Hill, Sr. (Hill)
v. SRWMD; Order to pursue good faith settlement,
entered on August 5, 2013.
Case no.: 3:12-cv-0860; Hill v. SRWMD; Order
affirming bankruptcy dismissal, entered on January
24, 2014.
Case no.: 3:12-cv-0860; Hill v. SRWMD; Order
granting Hill proceed without prepaying fee, appeal
has merit, and is not frivolous, entered on February
24, 2014.
Case no.: 3:14-cv- 0326; Hill v. SRWMD; Order to
pay $400.00 fee, entered on June 25th 2014.
Case no.: 3:14-cv-0326; Hill v. SRWMD; Order of
Dismissal w/o prejudice entered September 2, 2014.
Case no.: 3:15-ov-0074; Debtor El Rancho No Tengo,
Inc. w/ Jeffrey L. Hill, Sr.; Order sua sponte striking
and dismissing appeal entered on May 13, 2015.
Case no.: 3:15-cv-1013; Hill v. SRWMD; Order of
dismissal as moot entered on February 29, 2016.
Case no.: 3:15-cv-1445: Hill v. SRWMD; Order of
dismissal entered on February 29th, 2016.
Case no.: 3:15-cv-0169; Jeffrey Lance Hill, Sr.,
Joshua Seth Hill, Linda P. Hill, Jeffrey L. Hill, Jr.,

Jolene M. Hill and Megan L. Hill v. SRWMD; Order
remanding the case, entered on February 29, 2016.
Case no.: 3:15-cv-1475; Jeffrey Lance Hill, Sr. (Hill)
and Linda P. Hill v. SRWMD; Order of dismissal
entered on February 29, 2016.
Case no.: 3:17-cv-1342-HLA; Hill v. Johnson, et al;
SRWMD's motion for fees denied w/o prejudice to
refile entered July 30, 2018.
Case no.: 3:17-1342-HLA; Hill v. Johnson, et al;
Order granting SRWMD sanctions, denying rehear,
denying stay of property tax and denying
continuance entered May 18, 2018.
Case no.; 3:17-1342-HLA; Hill v. Johnson, et al;
Order to hold hearing for SRWMD entered April 11,
2018.
Case no.: 3:17-1342-HLA; Hill v. Johnson, et al;
Order sua sponte dismissal entered January 4, 2018.
RELATED U. S. CIRCUIT COURT
PROCEEDINGS
Appeal no.: 14-10609- BB; Jeffrey Lance Hill, Sr. v.
SRWMD; Order denying stay entered Oct. 9, 2014.
Appeal no.: 14-10609-BB; Jeffrey Lance Hill, Sr. v.
SRWMD; Opinion affirming District Court, barring
relitigating; entered on November 19, 2014.
Appeal no.: 14-10609-BB; Jeffrey Lance Hill, Sr. v.
SRWMD; Rehear denied, entered January 21, 2015.

xvi
Appeal no.: 16-11387-FF; Jeffrey Lance Hill, Sr.(Hill)
v. SRWMD; Appeal dismissed as moot, entered on
July 18, 2016.
Appeal no. 16-11387-FF; Hill v. SRWMD;
Reconsideration denied on September 30, .2016.
Appeal no.: 18-12215-AA; Hill v. Johnson, et al;
Opinion affirming District Court entered September
2019.
Appeal no.: 18-12215-AA; Hill v. Johnson, et al;
Rehear and en bane review denied on November 6,
2019.
Appeal no.: 18-12215-AA; Hill v. Johnson, et al;
Order denying stay of mandate; entered November
2019.

RELATED UNITED STATES SUPREME
COURT PROCEEDINGS
No. 16-1091; Certiorari denied on May 1, 2017.
No. 16-1091; Rehear denied on June 19, 2017.

xvii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
RELATED PROCEEDINGS

ii

TABLE OF AUTHORITIES

xxi

PETITION for WRIT of CERTIORARI

1

OPINIONS BELOW

1, 2

STATEMENT OF JURISDICTION

2, 3

CONSTITUTIONAL PROVISIONS AT ISSUE
STATUTES AT ISSUE

3, 4, 5

STATEMENT OF THE CASE

5

The state court's opinion begins controversy
Material Facts
Procedural History of this Appeal
Judgments for review and Questions
REASONS FOR GRANTING THE WRIT

3

-5
6, 7
7, 8

8, 9, 10
10

The $100,000.00 fine violates the United States
Constitution, Amendment VIII
10, 11, 12, 13
The state agency lacked authority

13, 14, 15

xviii
Table of Contents- continued

Page

The state court lacked subject matter jurisdiction
15, 16
The 11th Circuit's opinion conflicts its own
opinions
-17
The lower courts directly conflict with this Court
18, 19, 20
The lower courts violate Amendments V, VII, &
XIV
20, 21
CONCLUSION

21

APPENDIX CONTENTS
11th Circuit Court order on Nov. 6, 2019

A-1

11th Circuit opinion on Sep. 20, 2019

A-4

District Court order on July 26, 2018

A-12

District Court order on May 18, 2018

A-13

District Court order on April 11, 2018

A-18

District Court order on Jan. 4, 3018

A-19

Florida First District Court of Appeal, order on April
18, 2017, appeal no.: 1D16-3343
A-22
11th Circuit Court mandate, July 18, 2016

A-29

11th Circuit Court order, September 30, 2016

A-31

xix
APPENDIX CONTENTS — continued

Page

11th Circuit Court order, January 26, 2015

A-33

11th Circuit Court opinion, November 19, 201

A-34

SEE VOLUME II APPENDIX for ---B-1 thru B-390
District Court orders on February 29, 2016

C-1

District Court order on September 2, 2014

C-13

District Court order on February 24 2014

C-15

District Court order on January 24, 2014

C-17

Florida State court order on February 10, 2010 --D-1
Florida Supreme court order, August 26, 2015 D-12
Florida 1st District Court of Appeal, order on July 30,
2015; appeal no.: 1D14-5653
D-15
Florida 1st District Court of Appeal, order on June
30, 2015; appeal no.: 1D-14-5653
D-17
Florida state court order on November 3, 2014, case
no.: 13-666CA, foreclosure
D-19
Florida state court order on June 23, 2014; case no.:
11-340CA
D-28
Florida State court order awarding $280,376.20 on
May 3, 2010; case no.: 06-203CA
D-30

APPENDIX CONTENTS — continued

Page

Florida state court order on March 15, 2010; case
no.; 06-203CA
D-43
Florida Supreme Court Acknowledgment and order
on May 27, 2009, case no.: SC09-867
D-51
Florida 1st District Court of Appeal order on April 2,
2009; case no.: 1D08-2568
D-54
Florida State Court order imposing $100,000.00 fine
on April 25, 2008; case no.: 06-203 CA
D-55
Florida state court final order on August 6, 2007;
case no.: 06-203 CA
D-59
Florida state court order on December 11, 1989; case
no.: 89-22 CA
D-84
Florida Pt District Court partial transcript

E-1

Agency Complaint filed May 26, 2006

F-1

Hill's Deed to 120 Acres, section 4

G-1

U.S. District Court partial transcript of hearing on
July 29, 2013; case no.: 3:12-cv-0860
H-1
Certificate of Title to agency, July 23, 2015

I-1

Florida 1st District Court of Appeal, Partial Initial
Brief, appeal no.: 1D-08-2568,
J-1
Florida Statute 403.813

K-1

Decisions of Fla. 1st DCA, 2019

L-1

xxi
APPENDIX CONTENTS — continued

Page

Permit costs $260,000.00

M-1

Agency abandons real property

N-1

Agency allots $55,740.00 to County and City

0-1

County files Complaint, case no.: 17-132 CA

P-1

Agency pays $15,365.25 to City

Q-1

Deed in 1950 to Hill family farm

R-1

Sheriffs report, February, 2019

S-1

Nicholson v. Shafe, 558 F.3d 1266(11th Cir.2009--T-1
APPENDIX VOLUME II Contents
Cases cited by lower Federal courts

B-1 — B-390

TABLE OF AUTHORITIES
Armstrong v. United States, 364 U.S. 40 (1960) —11
Conley v. Gibson, 355 U.S. 41 (1957)

18

Cooper v. Reynolds, 77 U.S. 308, (1869)

15

Dolan v. City of Tigard, 512 U.S. 374(1994)

13

Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544
U.S. 280, 125 S.Ct. 1517, 161 L.Ed. 2d 454 (2005)-19
Haines v. Kerner, 404 U.S. 519 (1972)

18

xxii
Table of Authorities -continued

Page

Hill v. Suwannee .River Water Management District,
217 So. 3d 1100 (1D-16-3343)
15, 20
Johnson v. DeGrandy, 512 U.S. 997, (1994)

19

Koontz v. St. Johns River Water Management
District, 570 U.S. 595, 133 S.Ct. 2586 (2013) ---13, 14
Lujan v. Defenders of Wildlife, 504 U.S. 555
(1992)
14
Neitzke v. Williams, 490 U.S. 325 (1985)

18

Nicholson v. Shafe, 558 F.3d 1266 (11th Cir. 2009)-17
Nollan v. California Coastal Commission, 483 U.S.
825(1987)
13
Stop the Beach Renourishment v. Fla. Dept. of
Envtl. Prot., 560 U.S. 702, (2002)
15, 20
United Mine Workers of America v. Gibbs, 383 U.S.
715 (1966)
20
United States v. Bajakajuan, 524 U.S.321, 334, 118
S.Ct. 2028, 141L.Ed.2d 314 (1998)
11
United States v. United Mine Workers, 330 U.S. 258
(1947)
12
Verizon Md. v. Public Ser. Comm. of Maryland,
535 U.S. 635, (2002)
19
Warth v. Seldin, 422 U.S. 490, 518 (1975)
14

xxiii
Table of Authorities - continued

Page

Federal Statutes
28 U.S.C. section 1915(e)(2)(B)

18

42 U.S.C. section 1982

3, 4

42 U.S.C. section 1983

4

42 U.S.C. section 1985(3)

4

United States Constitution
U.S. Const. amend. V

3, 21

U.S. Const. amend. VII

3, 21

U.S. Const. amend. VIII

3, 10

U.S. Const. amend. XIV

3, 14, 17, 21

Florida Statutes
F. S. 373.406(1)

4, 14, 15

F. S. 403.813(1)(g) & (h)

4, 14, 15

Other Authority
Rooker-Feldman doctrine

10, 17, 19

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Jeffrey Lance Hill, Sr. (hereinafter 'Hill')
respectfully petitions to this Honorable Court .for a
writ of certiorari to review the opinion of the
Eleventh Circuit Court of Appeals and the
underlying judgment of the Florida state court.
OPINIONS BELOW
The 11th Circuit Court of. Appeals' denial of
rehearing and en bane review entered November 6,
2019, case no.: 18-12215, is reported at 2019 U.S. at
App. LEXIS 33275 and is reproduced in Petitioner's
Appendix (Pet. App.) A-1 thru A-3.
The opinion of the 11th Circuit Court of Appeals
entered September 20, 2019, case no.: 18-12215, is
reported at 787 Fed. Appx. 604 and is reproduced in
Pet. App. A-4 thru A-11.
The order of the U.S. District Court entered on July
30, 2018, case no.: 3;17-cv-1342, is reproduced at Pet
App. A-12.
The order by the U.S. District court entered May 18,
2018, case no.: 3:17-cv-1342, is reproduced in Pet.
App. A-13 thru A-17.
The order of the U.S. District Court entered on April
11, 2018, case no.: 3:17-cv-1342, is reproduced in Pet.
App. A-18.

2
The order of the U.S. District Court entered January
4, 2018, case no.: 3:17-cv-1342, is reproduced in Pet.
App. A-19 thru A-21.
The opinion of the Florida First District Court of
Appeal entered on April 18, 2017, appeal no.: 1D163343, is reported at 217 So. 3d 1100 and is
reproduced in Pet. App. A-22 thru A- 28.
The order of the 11th Circuit Court of Appeals, case
no.: 16-11387, entered July 18, 2016 is reproduced in
Pet. App. A-29 thru A-30.
The order of the 11th Circuit Court of Appeals, case
no. 16-11387, entered September 30, 2016 is
reproduced in Pet. App. A-31 thru A-32.
The order of the 11th Circuit Court of Appeals, case
no.; 14-10609, entered January 26, 2015 is
reproduced in Pet. App. A-33.
The order of the 11th Circuit Court of Appeals, case
no.: 14-10609, entered November 19, 2014 is
reported at 583 Fed. Appx. 894 and is reproduced in
Pet. App. A-34 thru A-37.
STATEMENT OF JURISDICTION in this
COURT
On September 20, 2019, the 11th Circuit Court of
Appeals entered its opinion of which review is sought
in this court. On November 6, 2019, the 11th Circuit
Court denied rehearing and en banc review, making
their decision final. This Honorable Court has

3
supervisory power over all courts under Title 28
U.S.C. sections 1254(1) , 1257(a) and Rule 10, United
States Supreme Court Rules.
CONSTITUTIONAL PROVISIONS AT ISSUE
The Takings Clause of the United States
Constitution provides that "nor shall private
property be taken for public use, without just
compensation", U. S. Constitution Amendment V.
The Seventh Amendment provides, in relevant part,
that "where the value in controversy shall exceed
twenty dollars, the right of trial by jury shall be
preserved".
The Eighth Amendment to the United States
Constitution provides that "Excessive bail shall not
be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted".
The Fourteenth Amendment to the United States
Constitution provides, in relevant part, that no state
shall "deprive any person of life, liberty, or property,
without due process of law; nor deny to any person
within its jurisdiction the equal protection of the
laws"; U.S. Constitution Amendment XIV, section 1.
STATUTES INVOLVED
Title 42 USC section 1982 provides; "All citizens of
the United States shall have the same right, in every
state and territory, as is enjoyed by white citizens

4
thereof to inherit, purchase, lease, sell, hold and
convey real and personal property".
Title 42 USC section 1983 provides, in relevant part,
"Every person who, under color of any statute,
ordinance, custom or usage of any State .... subjects,
or causes to be subjected, any citizen .... to the
deprivation of any rights, privileges or immunities
secured by the Constitution and laws, shall be liable
to the party injured ....".
Title 42 USC section 1985(3) provides, in relevant
part, "If two or more persons ....conspire .... for the
purpose of depriving, either directly or indirectly,
any person or class of persons the equal protection of
the laws ....the party so injured or deprived may
have an action for the recovery of damages
occasioned by such injury or deprivation, against any
one or more of the conspirators".
Florida Statute 403.813(1)(g) provides, in relevant
part; "a, permit is not required under this chapter
(Chapter 373)
Laws of Florida, for activities
associated with the following types of projects ... .
the maintenance of existing dikes".
Florida Statute 403.813(1)(h) provides, in relevant
part; "a permit is not required for ..... the repair or
replacement of existing functional pipes or culverts".
Florida Statute 373.406(1) provides; "Nothing
herein, or in any rule, regulation or order adopted
pursuant hereto, shall be construed to affect the

5
right of any person to capture, discharge, and use
water for purposes permitted by law".
A. STATEMENT OF THE CASE
"So you already have a pipe. But in order to replace
it, you've got to get a permit? That's what they're
telling you?"; "Maybe something here has just gotten
off the rails"; "It's not right the way it is"; quotations
of the District Court on July 29th 2013; Pet. App. H1 — H-4; (entire transcript is in Hill's appendix to
case no.:18-12215). The Florida trial court's errant
opinions are the beginning of this controversy when
the court disregarded state law and the United
States Constitution by allowing Suwannee River
Water Management District, (hereinafter, 'the
agency') to demand an unnecessary permit; case no.
06-203 CA; Pet. App. F-1 — F-5. The state court has
far departed from the accepted and usual course of
proceedings, "We're dealing with — an agency can
only act in accordance with the authority that's
extended to it"; stated by the First District Court of
Appeal during oral argument on Feb. 12, 2009; Pet
App. E-1. The Federal District Court and the 11th
Circuit court have sanctioned this departure by sua
sponte dismissal and affirmance. The 11th circuit
court's opinion bars Hill's constitutional right to due
process and access to the courts. The opinion allows
taking of real property without just compensation.

6
B.

MATERIAL FACTS

Hill's parents purchased 800 acres more or less in
sections 3, 4, & 5, Range 17 East, Township 4 South,
Columbia County, Florida in year 1950. Pet. App. R1 thru R-3.
In year 1971, Hill's parents placed most of the
farmland into a Florida Corporate name (El Rancho
No Tengo, Inc.), with only immediate family as
shareholders.
The agency sued Hill, His father and El Rancho No
Tengo, Inc. in 1989, demanding the Hills obtain a
permit to maintain a dike (case no. 89-22CA). The
Hills prevailed, the agency's complaint was
dismissed in the state trial court; Pet. App. D-84 —
D-96. Hill obtained a judgment for costs and fees
against the agency in year 1990.
Hill replaced a rusted culvert pipe on His farm in
May, 2006. The pipe was originally installed in year
1966 by Hill and His father; Pet. App. D-62.
Hill's farm is actively registered with the United
States Department of Agriculture, Farm Service
Agency as Farm number 2102, with agricultural crop
allotments.. The land the agency claims, (Pet. App. I1 —1-4), is in Farm no. 2102.
Suwannee River Water Management District is an
agency of the State of Florida.

7
The agency began its permitting program in year
1986; Pet. App. D-61.
The agency has an annual budget of —65 million
dollars of public funds.
The agency conducts its business at its headquarters
in Suwannee County, Florida.
The agency sued Hill's farm on May 26, 2006
demanding a permit be obtained from them for Hill
to replace an existing culvert pipe on Hill's farm;
case no.: 06-203 CA; Pet. App. F-1 thru F-5.
Hill and His wife purchased adjacent 120 acres in
1997, Section 4, R17E, TS4South, Columbia County,
Florida; Pet. App. G-1 thru G-5.
C. PROCEDURAL HISTORY of THIS APPEAL
Petitioner Hill filed a complaint in the U. S. District
Court, Middle District of Florida, (case no. 3:17-cv1342-HLA) on November 30, 2017.
The District Court sua sponte dismissed Hill's
complaint on January 4, 2018 without development
of the facts. The dismissal evades jury trial. Pet.
App. A-19 — A-21.
Hill filed a motion to stay the enforcement of
property taxes on subject property; the District
Court denied on May 18, 2018; Pet App. A-13 — A-17.

8
The District Court rendered a decision granting
agency's motion for sanctions against Hill on May
18, 2018; Pet. App. A-13 — A-17.
The District Court has jurisdiction under Title 28
USC section 1331 and 1367(a).
Hill timely filed an appeal to the U. S. Court of
Appeals, 11th Circuit, on May 25th, 2018. The 11th
circuit entered its opinion affirming the district court
on September 20, 2019. The decision became final
when the 11th circuit denied rehearing and en banc
review on November 6, 2019.
D. JUDGMENTS for REVIEW and QUESTIONS
The state court judgment(s) to be reviewed:
The state court judgment rendered in case no.: 96203CA on August 6, 2007; Pet. App. D-59 thru D-83.
The state court judgment rendered in case no. 06203CA on April 25, 2008; Pet. App. D-55 thru D-58.
The state court judgments rendered in case no.
06-203CA on May 3, 2010; D-30 thru D- 42 and
March 15, 2010; Pet. App. D-43 — D-50.
The federal questions sought to be reviewed were
raised in the Florida First District Court of Appeal
in appeal no. 1D07-4185 on November 26, 2007 and
in appeal no. 1D08-4568 on September 11, 2008. The
court consolidated the appeals. The questions were
raised in summary of arguments and in arguments;
Pet.. App. J-1 thru J-2. The court refused to answer
the questions presented, instead, the Florida First
District Court of Appeal affirmed the state court

9
without written opinion in both appeals and refused
to write opinion on April 2, 2009; Pet. App. D-54. The
Florida Supreme Court refused review on May 27,
2009 (case no. SC09-867); Pet. App. D-53. The
questions were raised again in the Florida First
District Court of Appeal in appeal no.: 1D18-0048
and that court refused to answer by per curiam
affirming w/o written opinion on July 26, 2019; Pet.
App. L-1. That court denied rehear, denied
clarification, and denied written opinion on October
4, 2019; Pet. App. L-2 — L- 3.
The federal questions sought to be reviewed were
raised by the Federal District Court itself during
hearing on July 29th, 2013 (case no. 3:12-cv-0860);
Pet. App. H-1 — H-4. The District Court has not
answered the questions, instead, the district court
affirmed; Pet. App. C-17 — C-19. Hill timely appealed
to the 11th Circuit and the court affirmed(ignoring
the federal questions) on November 19, 2014; Pet.
App. A-33 thru A-37.
The federal questions sought to be reviewed were
raised again in the United States District Court
(Plaintiffs Complaint, case no. 3:17-cv-1342-HLA),
entered 1-18-18; Docket 15, 16, 17). The District
Court sua sponte dismissed the case without
consideration of the questions; Pet. App. A-19 -A- 21.
. The federal questions sought to be reviewed were
raised again in the United States Court of Appeals
for the Eleventh Circuit (in Appellant's brief, case
no. 18-12215-AA, entered in record on 7-5-2018). The

10
Eleventh Circuit refused to answer, affirming the
District Court's dismissal by application of the
Rooker-Feldman doctrine on September 20, 2019;
Pet. App. A-4 thru A-11. The Eleventh Circuit denied
rehearing and en bane review on November 6, 2019;
Pet. App. A-1 thru A-3. The U.S. Court of Appeals for
the Eleventh Circuit has jurisdiction under Title 28
U.S.C. section 1291.

REASONS FOR GRANTING THE WRIT
I. THE $100,000.00 FINE VIOLATES THE U.S.
CONSTITUTION, AMENDMENT VIII
This matter is of great importance because, if left
unchanged, it is precedent that adversely affects all
farmers and landowners in the state of Florida. In
this instance, the precedent set by both the state and
federal courts abrogates the constitutionally
protected right barring excessive, unusual fines, the
right to own land, earn a living from the land, due
process and the right to a jury to decide the value of
the land taken. The precedent would allow state
agencies, cities and counties to take real property
without just compensation. Without review by this
court, private property rights are no longer
constitutionally protected in Florida. The agency's
demand was a plan of out and out extortion.
Eminent domain laws are adversely affected or
abrogated by the lower courts' decisions. Currently,
the agency is using 60 acres of Hill's land to store

11
surface water; Pet. App. case A-22 — A-28, D-1 thru
D-11 & D-43. The county and city are using 90 acres
to distribute and sell potable water without any
payment to the Hill family; Pet. App. 0-1. In
Armstrong v. United States, 364 U.S. 40,49 (1960);
this Court held; governments are barred "from some
people alone to bear public burdens which, in all
fairness and justice, should be borne by the public as
a whole". The Florida Court's opinions and orders in
case no.:06-203CA are a far departure from the
accepted and usual course of judicial proceedings.
The $100,000.00 fine imposed is excessive and
unusual. In United States v. Bajakajuan, this court
held that a fine is considered excessive if "it is
grossly disproportional to the gravity of the
defendant's offense". Hill's farm was fined
$100.000.00 for failing to obtain a permit to make
necessary repairs to His dike that had been in
existence much longer than the agency itself. Florida
Statute 403.813 (1)(h); (Pet. App. K-6) specifically
and particular provides that Hill did not need a
permit to replace an existing pipe. Hill was
operating and maintaining His farm in accordance
with long established state and federal law. The
state court's judgments are void ab initio. The state
court's "original final order" dated August 6, 2007,
Pet. App. D-59 - D-83, found there was a potential
for future problems, yet none had been demonstrated
and none have occurred since; the judgment is
purely speculative; Pet. App. D-69, lines 14-16. One
could say that there is a significant likelihood that
any dam or dike may fail. In case no.: 06-203 CA,

12
Florida Statute 373.129 is referred to in the state
court's order for imposition of penalties at the
absolute unbridled whim of the trial court judge; Pet.
App. D-57. F.S. 373.129 which sets civil penalties up
to $10,000.00 per offense per day, with no guidance
whatsoever as to how to determine, in a particular
instance, when the fine is $1.00 per offense per day
or $10,000.00 per offense per day. For determination
of amount of penalties; in United Mine Workers, 330
U.S. 258, at 304, 67 S.Ct. at 701, this court held;
"consider the character and magnitude of the harm".
No hearing was held to determine Defendant's
ability to pay, the character and magnitude of the
harm, the penalty's proportion to the gravity of the
offense or the seriousness of the burden on the
Defendant. Hill replacing the rusted pipe improved
the structural integrity of the dike, returned the dike
to its original elevation and has caused no harm;
Pet. App. D-66, lines 15-17 and Pet. App. F-4, para
13. The state court, in this case, has written new
law to unjustly punish Hill, legislating from the
bench. These judgments tarnish the public's
perception of the lower courts and do not pass the
common sense test. On July 29, 2013, the District
court judge referred to the agency's action as a train
wreck; Pet App. H-4. Real property should not be
taken by government without paying for it by way of
demanding a permit, creating excessive attorney fees
and imposing an unconstitutional, excessive fine.
Pet. App. A-28. The trial court granted the agency
quasi-judicial immunity to take Hill's land; Pet. App.

13
D-1 thru D-11, later, that decision was reversed; Pet.
App. A-22 thru A-28.
II. ABSENCE OF LEGAL AUTHORITY
Respondent Suwannee River Water Management
District, (the agency) acted without authority
extended to it by the Florida Legislature; see Florida
Statutes 403.813(1)(g)&(h); Pet. App. K-5 — K-6; and
F.S. 373.406(1). Florida law clearly and particularly
provide that Hill does not need a permit to replace
an existing pipe. In the state court case, the agency
demands Hill's farm obtain a permit to replace a
rusted pipe, Pet. App. F-1 — F-5. Such a. demand is
forbidden under Florida law. Further, the demand is
not consistent with the purpose of the state's
permitting process. The process was created to
regulate and reduce adverse environmental impact.
Hill's pipe was installed in 1966; Pet. App. D-62,
para 6. Replacing that pipe creates no environmental
impact whatsoever. Whatever the impact, good or
bad, that impact occurred in 1966. The U.S. Soil and
Water conservation Service aided and approved the
construction of the irrigation pond in 1966; Pet. App.
D-62, para 6. The agency's actions are a personal
vendetta. The agency made obtaining the permit
cost prohibitive and, of course, later the agency can
deny the permit, essentially taking the land;
although an unreasonable cost is contrary to this
court's recent decision in Koontz v. St. Johns River
Water Management District, 570 U.S. 595 (2013).
The agency' actions also conflict with this court's
holdings in Nollan, 483 U.S. 825(1987) and Dolan,

14
512 U.S. 374(1994), in which there must be a direct
connection between the cost of a permit and the
amount of environmental impact caused. In year
2006, the agency demanded Hill's farm hire an
geotechnical engineer of their choice and many other
`requirements', at a cost of $300.000.00 when
submitting application for the permit; Pet App. M-1.
This court has held that such a demand is an
unlawful taking in itself; see Koontz. The agency
was without legal and prudential standing to begin
the action in state court case no. 06-203CA; Warth v.
Seldin, 422 U.S. 490, 518 (1975); Lujan v. Defenders
of Wildlife, 504 U.S. 555 (1992). In Warth, page 490,
this court held; "the threshold requirement of such
rules that to have standing a complainant must
clearly allege facts demonstrating that he is a proper
party to invoke judicial resolution of the dispute and
the exercise of the court's remedial powers". During
oral argument in appeal no. 1D08-2568 on February
12th, 2009, Judge Michael Allen said; "We're dealing
with --- an agency can only act in accordance with
the authority extended to it"; Pet. App. E-1. The
agency was not a proper party as they were barred
from taking the action by state law (403.813 (1)(g)(h)
& 373.406(1) and the U.S. Constitution Amendment
XIV. The state court's prediction that Hill's dike will
break is entirely speculative and hypothetical; Pet.
App. D-69, para 29. The agency's position does not
fulfill the three elements described by this court in
Lujan, pages 560 & 561, in which the injury cannot
be conjectural or hypothetical and the injury cannot
be caused by the independent action of a third party.

15
Hill replaced the pipe and was not named in the
action. The agency did not possess the elements of
standing as required by state law or federal law;
therefore, the judgment is void ab initio.
III. ABSENCE OF JURISDICTION IN STATE
COURT CASE NO.: 06-203 CA
The state court lacked subject matter jurisdiction
and its judgments against Hill's family farm are void
ab initio. In Cooper v. Reynolds, 77 U.S. 308 (1869),
page 317; this court held; "The powers to render the
decree or judgment which the court may undertake
to make in the particular cause depends upon the
nature and extent of the authority vested in it by law
in regard to the subject matter in the cause". In this
matter, jurisdiction was absent in the state court.
Florida law specifically and particularly states Hill
did not need a permit from the agency to replace a
pipe; see F.S. 403.813(1)(g)&(h) and F.S. 373.406(1).
The state court's judgments ultimately took Hill's
farm without just compensation violating the
Takings Clause of the United States Constitution
and are contrary to this court's holding in Stop the
Beach Renourishment v. Florida Dept. of
Environmental Protection, 560 U.S. 702, (2010). The
Stop case is recited in Hill v. SRWMD, Appeal no.
1D16-3343; .Pet App. A- 28. The state court, in this
case, has written new law, legislating from the bench
and ultimately taking Hill's land without paying for
it. When the state court awarded $100.000.00 to the
agency, it placed Hill in a class of one. No other
person has ever been fined $100,000.00 for replacing

16
a pipe, nor is there any provision in Florida law for
such a penalty. Subsequent to the awards to the
agency by the state court, the agency filed a civil
action to foreclose and take about half of Hill's farm;
Pet. App. D-19 — D-27. In 2017, the city and county
joined in on the agency's free land grab; Pet App. P-1
— P-5 and Pet. App. Q-1. In its abandonment letter to
the county, the agency admits misapplication of the
law; Pet. App. N-3, lines 21 & 22. The agency admits
that part of the water lines lie on real property
belonging to other parties; Pet. App. 0-1, lines 16 &
17.The agency enticed the city and county to unite
with their interests by paying $55,740.00 to city and
county; Pet. App. 0-1. Subsequently, the county sued
Hill's son and SRWMD; Pet. App. P-1 — P-5 .
Currently, the City and County, who have united
their interests with the agency, are using portions of
Hill's land to distribute and sell potable water
without payment, without survey, without appraisal;
Pet. App. Q-1. Ultimately, the agency claims
ownership of Hill's land in section 3, TS4 South,
Range 17 East; Pet App. I-1 — 1-4. As recently as
February 12&15, 2019, the County, through its
receiver, dug into Hill's private property to extend a
water line more than 125 feet, without survey,
appraisal or payment to Hill; Pet. App. S-1. The
property encroached upon by the County in
February, 2019, is not a part of the property claimed
by the agency, but lies in an adjacent forty acres
belonging to Hill and His wife.

17
IV. THE 11TH CIRCUIT DIRECTLY CONFLICTS
ITS OWN DECISIONS AND OPINIONS
The Eleventh Circuit court erred when it affirmed
the District Court's dismissal by application of the
Rooker-Feldman Doctrine. Its decision conflicts with
its own decision in Nicholson v. Shafe, 558 F.3d 1266
(11th Cir. 2009); Pet. App. T-1 thru T-30. In
Nicholson, the court held; "The mere relitigation of a
claim does not deprive federal courts of jurisdiction
under Rooker-Feldman"; Id. page . 1274. In the
instant opinion, the court holds; " Hill's complaint
sought to relitigate the various state court
judgments entered against his farm and seek relief
from the alleged damages resulting from those prior
judgments. Thus, Hill's claims were barred by the
Rooker-Feldman doctrine,"; Pet App. A-9, lines 1620. Also, Rooker-Feldman is inapplicable in this
instance because Hill was not named in the agency's
action in state court; Pet. App. F-1, although Hill
was an indispensable party and real party in
interest. The opinion does not mention the amount of
the $100,000.00 fine at all. The Rooker-Feldman
Doctrine is not applicable to bar review of a state
court judgment that is void ab initio. None of the
cases cited by the 11th Circuit are on point, that is,
none involve taking of real property without paying
for it; Pet. App. B-i — B-390. The 11th Circuit's
opinion bars Hill from seeking relief in federal court
and violates the right to due process that is provided
to all citizens by Amendment XIV of the United
States Constitution.

18
V. THE DISTRICT COURT AND THE 11TH
CIRCUIT DIRECTLY CONFLICT WITH THIS
COURT
The District Court's order sua sponte dismissing
Hill's complaint conflicts with this Court's holdings
in Neitzke v. Williams, 490 U.S. 325, (1989) &
Conley v. Gibson, 355 U.S. 41,(1957). In Neitzke;
this court held; The District court should dismiss
"only if the Petitioner cannot make any rational
argument in law or fact which would entitle him or
her to relief'; Id. at 322, 323. The district court
abused its discretion. A real property takings claim
is per se, meaning it stands alone on its own merits.
The Defendants/Respondents do not and cannot deny
taking the property from Hill; Pet. App.I-1 — 1-4. The
11th Circuit admits, in its opinion, that the District
Court erred by applying 28 USC 1915(e)(2)(B) in
dismissing Hill's complaint. In Conley, this court
opined; "a complaint should not be dismissed for
failure to state a claim unless it appears beyond
doubt that the plaintiff can prove no set of facts in
support of his claim which would entitle him to
relief'; Id. At 45, 46; "Federal Rules of Civil
Procedure do not reqi ire a claimant to set out in
detail the facts upon which he bases his claim"; Id. at
47. In Haines v. Kerner, 404 U.S. 519 (1972), page
521, this court states that Hill is entitled to offer
proof (before dismissal). The District court dismissed
Hill's complaint without any finding of fact. The 11th
Circuit Court sanctioned the District Court's
departure from this court's supervision. The 11th
Circuit's opinion is in conflict with this court's

19
holdings in Verizon Md. v. Public Service Comm. of
Maryland, 535 U.S. 635, (2002) and Exxon Mobil v.
Saudi Basic Indus. Corp., 544 U.S. 280, 125 S.Ct.
1517, 161 L.Ed.2d 454 (2005). In Verizon, this court
held; "The Rooker-Feldman Doctrine has no
application to judicial review of executive action,
including determinations by an state administrative
agency"; Id. at 644. Suwannee River Water
Management District is such an agency. In Exxon,
this court held; "Nor does section 1257 stop a District
Court from exercising subject matter jurisdiction
simply because a party attempts to litigate in federal
court a matter previously litigated in state court"; Id.
at 293, Further, in Exxon, this court held; "RookerFeldman does not apply to a suit seeking review of a
state agency action"; page 287. The opinion of the
11th circuit conflicts with Exxon in that Exxon,
makes it clear that: Rooker-Feldman "is confined to
cases of the kind from which it acquired its name".
The Rooker-Feldman Doctrine is not a vehicle for
government to take land without paying for it. The
state courts, on numerous occasions, have refused to
answer the federal questions presented in this
matter, Pet. Apps. D-12, D-13, D-15, D-16, D-17, D18, E-1, E-2, J-1, J-2; therefore, the state court case
has not ended. Hill brought this matter to the
district court in 2012, case 3:12-cv-0860, and
obtained no relief; Pet. App. C-17 — C-18. In Johnson
v. DeGrandy, 512 U.S. 997, 1005-06, (1994); this
court held; "the doctrine has no application to a
federal suit brought by a non-party to the state suit",
page 1006. Although an indispensable party and real

20
party in interest, Hill was not named in the agency's
action in state court case no. 06-203 CA; Pet. F-1 —
F-5. Further, Hill was the party who replaced the
pipe, El Rancho No Tengo, Inc. was not. For an
agency of the state to demand a permit for an
existing structure, impose an excessive fine, create
excessive attorney fees and take real property by and
through these actions is unacceptable. This court
held in United Mine Workers of America v. Gibbs
(1966); "The Federal Courts are particularly
appropriate bodies for the application of preemption
principles"; Id. at 729. The agency's actions are
contrary to the laws of eminent domain and conflict
with this court's holding in Stop the Beach
Renourishment, Inc. v. Fla. Dept. of Envtl. Prot., 560
U.S. 702, 715(2010); in which this court held; "The
Takings Clause bars the State from taking private
property without paying for it, no matter which
branch is the instrument of the taking"; recited in
Hill v. SRWMD, 1D16-3343; Pet. App. A-22 — A-28.
The agency does not possess the power of eminent
domain in Florida. This Honorable Court should
exercise its supervisory power in order to align this
matter with established law and the United States
Constitution.
VI. THE OPINIONS OF THE 11TH CIRCUIT
AND THE DISTRICT COURT VIOLATE
AMENDMENTS V, VII and XIV OF THE U. S.
CONSTITUTION
The 11th circuit's opinion forever bars Hill from
seeking relief in the federal courts. Hill's property

21
has been taken without due process of law, without
trial by jury, and without just compensation; Pet.
App. I-1 — 1-4. Hill's private property has been taken
for public use without just compensation; Pet. App.
0-1. The rights provided by Amendments V and XIV
were denied when the district court sua sponte
dismissed Hill's complaint and when the 11th circuit
affirmed that decision. Amendment VII provides Hill
the right of trial by jury; that constitutionally
protected right has been denied in the District court
case no. 3:17-cv-1342 and denied in state court case
no. 11-340 CA. In both those land takings cases, Hill
demanded a jury trial and the demand was ignored.
If the decisions are left unchanged, Hill is denied the
right to due process and equal protection of the laws
as guaranteed by Amendment XIV.

CONCLUSION
The writ should be granted and Petitioner prays this
Court summarily declare the $100,000.00 fine
unconstitutional.

Dated:

L-

—Ao.0

Respectfully submitted by:
Jeffrey Lance Hill, Sr., Petitioner pro se, of 908 SE
Country Club Road, Lake City, Florida 32025;
Phone: 386-623-9000.

